OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/UGANDA’S
IMPLEMENTATION OF THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 4-617-05-006-P
AUGUST 1, 2005




PRETORIA, SOUTH AFRICA
     Office of Inspector General




          August 1, 2005


          MEMORANDUM

          FOR:                 USAID/Uganda Acting Mission Director, Elzadia Washington

          FROM:                Acting Regional Inspector General/Pretoria, James B. Gaughran /s/

          SUBJECT:             Audit of USAID/Uganda’s Implementation of the President’s
                               Emergency Plan for AIDS Relief (Report No. 4-617-05-006-P)

          This memorandum transmits our final report on the subject audit. In finalizing our
          report, we considered your comments on our draft report and have included your
          response in its entirety in Appendix II.

          This report includes three recommendations that USAID/Uganda (1) schedule a data-
          quality assessment for one of its indicators, (2) develop a plan to identify alternate
          sources for test kits in case of emergency supply disruptions, and (3) revise its
          targets for Strategic Objective No. 8 and update the Performance Management Plan.
          In your written comments, you concurred with all three recommendations.

          In response to the draft report, USAID/Uganda accepted all three recommendations
          and included corrective action plans and target completion dates. Therefore, we
          consider that management decisions have been reached for Recommendation Nos. 1
          through 3. Please provide the Bureau for Management, Office of Management
          Planning and Innovation with evidence of final action in order to close the
          recommendations.

          I want to express my sincere appreciation for the cooperation and courtesy extended
          to my staff during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... .3

Background ...................................................................................................................... .4

Audit Objectives .................................................................................................................. .5

Audit Findings ................................................................................................................... .6

How has USAID/Uganda participated in the President’s
Emergency Plan for AIDS Relief activities? ....................................................................... .6

Did USAID/Uganda’s HIV/AIDS activities progress
as expected towards planned outputs in their
grants, cooperative agreements and contracts? ................................................................ 10

     The Data Quality of One Indicator
     Needs Improvement...................................................................................................... 11

     Alternate Supply Sources for Test
     Kits Need To Be Identified ............................................................................................ 12

     Performance Targets for Implementing
     Partners Were Outdated ............................................................................................... 14

Are USAID/Uganda’s HIV/AIDS activities contributing to the
overall U.S. Government’s Emergency Plan targets? ..................................................... …15

Evaluation of Management Comments ........................................................................ …17

Appendix I – Scope and Methodology ......................................................................... …18

Appendix II – Management Comments ........................................................................ …20

Appendix III – List of Acronyms ................................................................................... …22
SUMMARY OF RESULTS
This audit, which was performed by the Regional Inspector General/Pretoria, is one in a
series of audits conducted by the Office of Inspector General. The objectives of the
audit were to determine (1) how USAID/Uganda participated in the President’s
Emergency Plan for AIDS Relief activities, (2) whether USAID/Uganda's HIV/AIDS
activities progressed as expected towards planned outputs in their agreements and
contracts, and (3) whether USAID/Uganda's HIV/AIDS activities contributed to the
overall U.S. Government's Emergency Plan targets. (See page 5.)

As a result of our audit, we concluded that USAID/Uganda has had a principal role in the
President’s Emergency Plan for AIDS Relief activities in Uganda for HIV/AIDS
prevention and care, as well as for HIV/AIDS treatment; its partners were progressing
much better than expected towards meeting planned outputs in their agreements; and
USAID/Uganda’s HIV/AIDS activities were contributing significantly to the overall U.S.
Government’s Emergency Plan care and treatment targets for fiscal year 2004. (See
pages 6, 10, and 14.)

This report includes three recommendations that USAID/Uganda (1) schedule a data-
quality assessment for one of its indicators, (2) develop a plan to identify alternate
sources for test kits for emergency supply disruptions, and (3) revise its targets for
Strategic Objective No. 8 and update the Performance Management Plan. (See pages
12, 13, and 14.)       Management concurred with all three recommendations and
management decisions have been reached on the three recommendations. See page 17
for our evaluation of management comments.




                                                                                      3
BACKGROUND
Congress enacted legislation to fight HIV/AIDS internationally through the President’s
Emergency Plan for AIDS Relief (Emergency Plan). The $15 billion, 5-year program
provides $9 billion in new funding to speed up prevention, care and treatment services in
15 focus countries.1 The Emergency Plan also devotes $5 billion over five years to
bilateral programs in more than 100 countries and increases the U.S. pledge to the
Global Fund2 by $1 billion over five years.

The fiscal year 2004 budget for the Emergency Plan totals $2.4 billion. Of this amount,
$80.6 million was reported as being used in support of integrated prevention, care and
treatment programs in Uganda, one of the 15 focus countries. Uganda has a population
of 25 million people, of which 1 million are estimated as being infected with HIV. The
prevalence rate3 was estimated to be 6.2 percent for pregnant women in 2003.
Moreover, there are currently estimated to be 2 million children in Uganda that have
been orphaned due to HIV/AIDS.

The U.S. President and Congress have set aggressive goals for addressing the worldwide
HIV/AIDS pandemic. The world-wide goal over five years is to provide treatment to 2
million HIV-infected people, prevent 7 million HIV infections and provide care to 10 million
people affected by HIV/AIDS, including patients and orphans. The Department of State’s
Office of the Global AIDS Coordinator (O/GAC)—which coordinates the U.S. Government’s
(USG) fight against HIV/AIDS internationally—divided these Emergency Plan targets
among the 15 focus countries and allowed each country to determine its own methodology
for achieving its portion of the assigned targets by the end of five years. The U.S.
Government Emergency Plan team in Uganda committed to achieving the following
targets4 by September 30, 2004:

                    Total # of               Total # of               Total # of People
                    Infections               People                   Receiving
                    Averted                  Receiving Care           Antiretroviral
                                             and Support              Therapy
                          To Be
                        Determined                 225,000                     24,410

The Emergency Plan is directed by the Global AIDS Coordinator and implemented
collaboratively by country teams made up of staff from USAID, the Department of State,
the Department of Health and Human Services, and other U.S. Government agencies.
Within USAID, the Bureau for Global Health has general responsibility for USAID’s

1
  Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia, Nigeria, Rwanda, South Africa,
Tanzania, Uganda, and Zambia in Africa; Guyana and Haiti in the Caribbean; and Vietnam in Asia.
2
    The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis and malaria.
3
 The prevalence rate is defined as the number of cases of a disease during a particular interval of time,
expressed as a rate.
4
 The infections averted (prevention) target, from the Uganda fiscal year 2004 Country Operating Plan, is
currently being reviewed to determine basic methodologies to set the target.




                                                                                                                 4
participation in the Emergency Plan. More specifically, the Director of Global Health’s
Office of HIV/AIDS provides the technical leadership for USAID’s HIV/AIDS programs.

Below is a map showing Uganda and adjoining countries.




           Source: http://www.lib.utexas.edu/maps/cia04/uganda_sm04.gif



AUDIT OBJECTIVES
As part of the Office of Inspector General’s fiscal year 2005 annual audit plan, this audit
was conducted as one in a series of worldwide audits of USAID’s implementation of the
President’s Emergency Plan for AIDS Relief. It was conducted to answer the following
questions:

•      How has USAID/Uganda participated in the President’s Emergency Plan for
       AIDS Relief activities?

•      Did USAID/Uganda's HIV/AIDS activities progress as expected towards planned
       outputs in their grants, cooperative agreements and contracts?

•      Are USAID/Uganda's HIV/AIDS activities contributing to the overall U.S.
       Government's Emergency Plan targets?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         5
AUDIT FINDINGS
How has USAID/Uganda participated in                              the     President’s
Emergency Plan for AIDS Relief activities?
The President’s Emergency Plan is divided into three broad categories: prevention, care
and treatment. USAID/Uganda had a principal role in Emergency Plan activities in
Uganda for prevention and care, as well as for HIV/AIDS treatment. The Mission’s
efforts in these areas are detailed below.

Prevention

The Office of the Global AIDS Coordinator (O/GAC) published guidance dividing the
broad category of prevention into the following initiatives: (1) Prevention of Mother-to-
Child   Transmission    (PMTCT),      (2)    Abstinence/Be      Faithful,  (3)   Medical
Transmission/Blood Safety, (4) Medical Transmission/Injection Safety and (5) Other
Prevention. USAID/Uganda had a major role in all of these initiatives.

Prevention of Mother-to-Child Transmission (PMTCT) – Uganda was among the first
countries in sub-Saharan Africa to initiate clinical PMTCT programs with a pilot program
in 2000, which has since been expanded to many parts of the country with the help of
the Ministry of Health. USAID/Uganda has supported this national program since its
inception, with planned expansion to bring PMTCT services to several districts not
currently receiving any services, as well as to lower-level centers. In fiscal year 2004,
through its implementing partner, USAID/Uganda reported providing PMTCT services to
over 70,000 women accessing antenatal care services in numerous health districts.




                                                            Photograph        taken        by
                                                            USAID/Uganda Public Information
                                                            Officer in January 2004 of a
                                                            service provider weighing a child
                                                            at a PMTCT Mukono Health
                                                            Center    site.      Child-growth
                                                            monitoring and follow-up is an
                                                            important element of the PMTCT
                                                            program. (Mukono, Uganda)




                                                                                           6
Abstinence/Be Faithful – USAID/Uganda reported that its overall Abstinence, Be
Faithful and Condom use (ABC) prevention programming was based mainly on the “AB”
model, where the “A” stands for abstinence and the “B” stands for “be faithful.” The
program also includes “C” for the use of condoms, which is discussed below. The
Emergency Plan legislation requires that one third of prevention funding be allocated to
abstinence and be faithful programs.

Uganda has experienced significant declines in HIV prevalence and incidence during the
1990s. Reasons offered for these successes include programming found in the above
model that resulted in changes in sexual behavior, especially delaying sexual debut,
reducing multiple partners, and using condoms. Following an AB approach, fiscal year
2004 focused on promoting abstinence among young people. Supported programs and
activities involved development, adaptation, refinement, and dissemination of messages
and skills that encouraged abstinence and delayed sexual debut. Initiatives were geared
toward the central and district levels with a wide range of implementing partners. A
major effort was school-based, with the development of age-appropriate materials and
messages for primary school students.

Medical Transmission – USAID/Uganda reported supporting the national program to
improve blood safety by strengthening safety precautions in 30 hospitals and 44 lower-
level health centers. Additionally, the Mission has been the key supporter of injection
safety practices in Uganda. In fiscal year 2004, a three-element approach was designed
and implemented that addressed behavior change—targeting patients and healthcare
workers to reduce injection overuse and develop healthy habits—and provided sufficient
quantities of appropriate injection equipment and related supplies.

Other Prevention Activities – From its inception, the USAID/Uganda prevention
strategy has also included training and technical assistance in the areas of treatment of
sexually transmitted infections and the prevention of new infection by supporting condom
use in high-risk groups such as uniformed servicemen and commercial sex workers.

Care

To establish consistency in reporting, the O/GAC has published guidance dividing the
broad category of care into the following categories, all of which USAID/Uganda is
heavily involved in: (1) voluntary counseling and testing, (2) palliative care, and (3) care
for orphans and vulnerable children.

Voluntary counseling and testing (VCT) – As a point of entry for HIV/AIDS care,
prevention and treatment programming, VCT serves a variety of purposes, one of which
is determining eligibility for services. For this reason, USAID/Uganda was the primary
supporter of counseling and testing services in over 46 districts in fiscal year 2004. One
partner reported providing over 228,000 HIV tests, while a second reported 105,000
tested and a third reported 17,000 tested. Most of the centers have integrated basic
healthcare, TB and STI management services into the VCT services. In addition,
Mission support focused on building effective referral networks to link HIV counseling
and testing to treatment, care and support services. USAID/Uganda also reported
reaching over 1.7 million people with counseling and testing promotional campaigns,
thereby encouraging counseling and testing while creating awareness of the benefits of
testing. USAID/Uganda’s approach was to move toward wider access to counseling and



                                                                                          7
testing through partners operating both direct sites and setting up services with the
Ministry of Health.




                                              Photograph of a laboratory technician testing a blood
                                              sample for HIV at the AIDS Information Center in
                                              Kampala, Uganda in March 2005. (Photo courtesy of
                                              USAID/Uganda)




Palliative care – USAID/Uganda reported taking a holistic approach to care, with a
broad spectrum of interventions to optimize the quality of life for people living with
HIV/AIDS and their immediate families. Key supported interventions include:

   •   psychosocial support
   •   clinical care for opportunistic infections
   •   home-based care
   •   pain management and symptom control
   •   nutritional support
   •   spiritual care
   •   culturally appropriate terminal care
   •   post-bereavement support

Palliative care still remains a critical supportive intervention to enhance positive behavior
and adherence to treatment protocols. Under the Emergency Plan, USAID/Uganda was
scaling up access to care through the development of networks for care and treatment
that link families, communities, civil society organizations and health units to an
expanded range of services. Referred to as a “Network Model,” this concept was
focused on building strategic public-private partnerships and the capacity of all
participating institutions in order to implement a multi-sectoral response to HIV/AIDS.
The network model in Uganda is a continuum of care focusing on identifying and
supporting HIV positive individuals so they can receive prevention, care and treatment
services. The network model is a holistic approach taking into consideration HIV-infected
individuals’ place with families and communities. The network model recognizes that any
institution providing support, care, or treatment operates among other institutions
providing complimentary services.


                                                                                                 8
Care and Support for Orphans and Vulnerable Children (OVC) – In 2004,
USAID/Uganda reported that there were an estimated two million children orphaned, of
which approximately 50 percent were orphaned as a result of HIV/AIDS. Although the
Ministry of Gender, Labour and Social Development has the mandate for ensuring a
comprehensive response to OVC, service delivery has been fragmented, and there have
been no quality standards or guidelines for critical service delivery. USAID/Uganda has
had several projects to support the national program as well as capacity building and
service delivery at the community level. At the national level, a national policy and
implementation plan had recently been developed. At the district level, Mission partners
reported supporting more than 70,053 orphans and vulnerable children—providing
scholastic materials, short-term food security, income-generating activities, psychosocial
support, and advocacy efforts, including legal assistance.

Treatment

USAID/Uganda played a major role in fiscal year 2004 administering the Emergency
Plan Team’s treatment programs in Uganda. Treatment reporting categories were
divided into (1) antiretroviral (ARV) drugs, (2) ARV Services and (3) laboratory
infrastructure.

ARV drugs – USAID/Uganda reported that, prior to 2003, few sites in Uganda had been
accredited by the Ministry of Health to provide antiretroviral therapy (ART) to an
estimated 150,000 to 200,000 HIV-infected Ugandans who required it. Through the
Mission-supported Joint Clinical Research Center (JCRC), by the end of 2004, over
21,000 individuals were reached with ART, including nearly 800 orphans, at 25 sites.
The JCRC focused on capacity building of both public sector and private sector clinics,
providing support for infrastructure, training, communications, logistics and monitoring.
USAID/Uganda also supported national leadership with the Ministry of Health and other
organizations with the goal of meeting national targets to provide universal access to all
who required treatment.

ARV Services – USAID/Uganda reported that it provided support for development of
ART costing models with the Ministry of Health for determining best strategic
approaches for subsidizing ARV drugs to increase numbers of people able to afford ARV
services, a plan developed for long-term sustainability of ARV provision. In conjunction
with other Emergency Plan partners, USAID/Uganda’s strategy is to support national
expansion of ART delivery and care services through a network of service delivery sites
linked to care and support services—thereby enabling the delivery of a comprehensive
package of quality ARV services to clients and their families through clinical and
laboratory training, materials development, monitoring, support supervision and technical
assistance.

Laboratory infrastructure – In fiscal year 2004, USAID/Uganda reported that it had
undertaken a laboratory assessment in conjunction with the Centers for Disease Control
and Prevention (CDC). This assessment identified major gaps in laboratory supplies,
training, commodities, staffing and services, as well as a critical need to expand access
to quality HIV/AIDS lab services in Uganda.              To address these weaknesses,
USAID/Uganda provided training of laboratory staff in 12 districts, support supervision
and follow-up for 9 districts, and provision of basic laboratory equipment for 52 hospitals
and health centers. Through an implementing partner, laboratories in all the sites


                                                                                         9
providing ART were upgraded. In conjunction with the CDC, USAID/Uganda worked to
establish a laboratory supplies credit line with an integrated logistics system.

Although USAID/Uganda has been successful in scaling up its previous HIV/AIDS efforts
into a very comprehensive and complex Emergency Plan program, the sustainability of
the program remains uncertain. Despite the fact that USAID/Uganda’s implementing
partners have been encouraged by their substantial accomplishments in capacity
building, which they believe is an important element of sustainability, identifying
adequate future sources of funding for the program remains a problem.



Did USAID/Uganda’s HIV/AIDS activities progress as expected
towards planned outputs in their grants, cooperative
agreements and contracts?
For those activities tested, USAID/Uganda’s activities were progressing at a rate better
than originally expected towards meeting planned outputs contained in agreements and
contracts with the Mission’s implementing partners. However, we determined that:

       •   the quality of one performance indicator needed improvement
       •   a plan was needed to provide HIV/AIDS test kits in the event of unexpected
           supply shortages
       •   the performance targets in the Mission’s Performance Management Plan
           were outdated

USAID/Uganda’s implementing partners reported significant outputs in providing
prevention under the broad Emergency Plan categories of (1) prevention, (2) care, and
(3) treatment. Under prevention for example, through the Elizabeth Glaser Pediatric
AIDS Foundation, USAID/Uganda reported that 40 sites in seven districts have been
providing PMTCT services to over 70,000 women accessing antenatal care services. Of
these, more than 40,000 women were tested and over 60 percent of those who tested
positive (2904 women) received a complete course of antiretroviral prophylaxis. The
Foundation’s performance targets for the PMTCT services were 69,000 of these, 2,810
received the complete course.

Under the category of care, USAID/Uganda maintained agreements with several
partners, the largest of which was the AIDS/HIV Integrated Model (AIM) program run by
John Snow, Inc. During 2004, AIM reported significant results for care and support, as
well as for various types of capacity-building services, all of which were equal to or
exceeded the respective targets.       For example, the program reported 105,409
individuals receiving VCT, compared to planned output of 60,000. For OVCs receiving
care and support, 56,817 children were reported compared to planned output of 40,000.
The reported number of individuals receiving PMTCT services was 48,168, compared to
a planned output of 24,100.

Under the category of treatment, USAID/Uganda’s primary partner for delivering ART
was the Joint Clinical Research Centre (JCRC). Through this local organization, 21,583
individuals were reported as receiving ART, against a planned output of 24,410 for the
entire Emergency Plan. In addition to providing therapy, the JCRC also focused on



                                                                                     10
capacity building of both public and private sector clinics, providing support for
infrastructure, training, communications, logistics and monitoring.

However, we did note three problems affecting the results reported under these
indicators. The first involved improvement that was needed in the quality of the data for
the PMTCT indicator. The second concerned a lack of test kits that could impact the
ability to meet future PMTCT targets. The third concerned performance targets that
were outdated. These issues are discussed below.

The Data Quality of One
Indicator Needs Improvement
    Reported results for the PMTCT indicator were not adequately supported as required
    by Federal guidance. This occurred because of inconsistent and poor record-keeping
    procedures at the service providers. Without accurate and reliable information, the
    purposes of a results-oriented management approach will not be met.

Under the PMTCT indicator, USAID’s implementing partner, Elizabeth Glaser Pediatric
AIDS Foundation, relied on secondary sources to report results to USAID. The principal
secondary source was the Ministry of Health District Offices, which in turn relied on data
provided by the various district health clinics and hospitals that were the actual service
providers. We found errors in reported results at all three of the sites visited.

•     At the first site visited, individual patient registers and supporting monthly reports to
      the District Office indicated that 16 babies receiving treatment. However, by the time
      the District reported to USAID’s implementing partner, only 12 babies were reported
      as receiving treatment, which equates to a 25 percent error rate.

•     At the second site visited, less than half of the 24 babies reported as receiving
      treatment were supported by patient registers. The Ministry of Health staff, however,
      was confident that the babies did receive the treatment. From both a medical and
      accounting standpoint, patient records should nevertheless accurately reflect all
      treatment that is provided to patients.

•     The third site also had incomplete patient registers to support the reported 21
      mothers and 15 babies receiving treatment. Ministry of Health staff, however, was
      confident that 16 mothers and 15 babies did receive treatment. Even if the 16
      mothers did in fact receive treatment, five mothers were still not accounted for—an
      error rate of 24 percent.

Although the differences in numerical values for each site were relatively small, the
number of sites in the program, combined with the large percentages for the reporting
error rates, could result in a significant error rate for the PMTCT indicator across the
entire program. For example, there were 16 sites reporting to the Foundation in just the
Mukono District. The Foundation also operated in six other districts during fiscal year
2004, with plans to expand into additional districts in the future.

GAO’s Standards for Internal Controls in the Federal Government states that all
transactions and significant events need to be clearly documented and that the
documentation should be readily available. Additionally, USAID’s Guidelines for


                                                                                            11
Indicator and Data Quality, Tips Number 12, which summarizes the key references on
performance measurement quality found in various parts of USAID’s Automated
Directives System, states that USAID’s results-oriented management approach relies on
both field and Washington managers to inform their decisions with performance
information. Sound decisions require accurate, current, and reliable information, and the
benefits of this results-oriented approach depend substantially on the quality of the
performance information available. Periodic quality reassessments are processes that
facilitate the maintenance of quality performance indicators and data. They should
provide opportunities for independent checks concerning the quality of USAID’s
performance measurement systems. The reassessment is designed to confirm that
performance indicators and data are at a level of quality that permits both confident
decision-making by managers and effective reporting to those outside the program.

The discrepancies described above were due to inconsistent and poor record keeping
procedures at the reporting health centers and hospitals, as well as to a data-collection
problem at the district level. Clinic and hospital workers also used a variety of patient
registers for different treatments, some of which were pre-printed and some of which
were individually designed. Use of these registers, however, was inconsistent due to a
lack of well-defined record-keeping procedures.

Without accurate and reliable information, the purposes of a results-oriented
management approach will not be met. These purposes include (1) ensuring that
budget decisions are as well informed as practically possible, (2) supporting efficient use
of USAID resources, (3) meeting requirements of Federal legislation, and (4) addressing
the information needs of USAID, as well as those of the Emergency Plan. To help
ensure that these purposes will be met, we make the following recommendation.

   Recommendation No. 1: We recommend that USAID/Uganda schedule a data-
   quality assessment for the performance indicator reporting the prevention of
   mother-to-child transmission to determine what training and technical assistance
   is necessary to ensure data quality.

Alternate Supply Sources for
Test Kits Need To Be Identified
 Some service providers were not able to test all new antenatal clients as a result of
 unforeseen disruptions in the supply of HIV/AIDS test kits provided by other donors.
 Without a secure and stable supply of test kits, performance targets may not be met
 as required by the principles of performance management.

For some service providers, the current supply source of HIV/AIDS test kits was not
secure and reliable. Due to a lack of HIV/AIDS test kits, the Elizabeth Glaser Pediatric
AIDS Foundation was not able to test all new antenatal clients for over two months in
order to provide services reported under the performance indicator for the prevention of
mother-to-child transmission (PMTCT). The service providers supported by the
Foundation relied on test kits provided by the Ministry of Health (MOH). The MOH,
however, did not directly procure test kits, but relied on other donors, such as the World
Bank and the Global Fund, to supply the kits.




                                                                                        12
During the period from January to March 2005, many of the Foundation’s service
providers were unable to test all of their new clients because of the lack of test kits. For
example, at the Mukono Town Center Health Center, 709 new antenatal clients were
reported during the period January through March, but only 100 of these new clients
were reported as tested for HIV due to the shortage of test kits. Without test results, the
health centers were unable to provide PMTCT services to those clients identified as
needing treatment.

To avoid future unexpected disruptions in the supply of test kits, the Foundation would
like to obtain grant authority to purchase its own kits, which are relatively inexpensive.
USAID officials stated that they would prefer to continue using the Ministry of Health as
the customary source for test kits, but did not see any problem with using alternate
supply sources in the event of disruptions in the supply chain.

USAID’s Automated Directives System (ADS) 200 defines performance management as
the systematic process of monitoring the results of activities; collecting and analyzing
performance information to track progress toward planned results; using performance
information to influence program decision-making and resource allocation; and
communicating results achieved, or not attained, to advance organizational learning and
tell the Agency’s story. ADS 202 also states that monitoring the quality and timeliness of
outputs is a major task of cognizant technical officers and strategic objective teams.
Outputs are specifically described in contract statements of work and grant agreement
program descriptions, are critical to achieving results. Delays in completing outputs or
problems in output quality provide an early warning that results may not be achieved as
planned. Timeliness of key outputs may affect the achievement of performance targets.
Early action in response to problems is essential in managing for results.

The lack of an adequate supply of test kits occurred as a result of unexpected supply
disruptions from two primary donors. Although these disruptions were not foreseen and
were beyond the control of USAID and its partners, sufficient alternate sources had not
been identified or made available at the time of the shortage to provide an ample supply
of the kits for the service providers supported by the Foundation.

Without a secure and stable supply of HIV/AIDS test kits, implementing partners
providing PMTCT, as well as voluntary counseling and testing services, cannot perform
the services set forth in the program descriptions of their grant agreements and funded
by USAID and other donors. Therefore, their performance targets may not be achieved.
Consequently, we make the following recommendation.

   Recommendation No. 2: We recommend that USAID/Uganda develop a plan to
   provide implementing partners with either individual grant authority or other
   reliable sources of HIV/AIDS test kits in the event of unexpected disruptions in
   the supply chain.




                                                                                         13
Performance Targets for
Implementing Partners Were Outdated
 Several performance targets for implementing partners were significantly outdated
 and needed revision as required by USAID guidance. This occurred because the
 targets were established prior to the implementation of the Emergency Plan. Without
 realistic performance targets, the intended purpose for having targets may not be
 met, which could negatively impact USAID’s results oriented management approach.

Several of USAID/Uganda’s performance targets for implementing partners under
Strategic Objective (SO) No. 8, Improved Human Capacity, were significantly outdated
and needed revision. For example, the fiscal year 2004 performance target in the
Performance Management Plan (PMP) for the number of orphans and vulnerable
children receiving care and support was 18,699. The reported result, however, was
70,053 (adjusted for double counting). The performance target for the number of
individuals receiving VCT was 226,960. However, USAID/Uganda’s performance
database reported annual results totaling 269,680 (adjusted for double counting). For
individuals receiving antiretroviral drugs, the target was 15,000 with actual results
reported at 21,583.

USAID’s Establishing Performance Targets, Tips No. 8, states that performance targets
are critical to managing for results because they are key reference points for assessing
program performance. They represent commitments that USAID operating units make
about the level and timing of results to be achieved by the program. Targets help to
justify a program by describing in concrete terms what USAID’s investment will produce,
orienting stakeholders to the tasks to be accomplished, and motivating individuals
involved in a program to do their best to ensure that targets are met. They help to
establish a clear management contract between a USAID operating unit and the
managers to whom the unit reports. From a motivational standpoint, realistic targets
build confidence about an operating unit’s ability to plan and perform.

Performance targets should be included in an operating unit’s Performance
Management Plan. The Automated Directives System (ADS) 203.3.4.5, Setting
Performance Baselines and Targets, states that, for each performance indicator,
operating units should set performance targets in the unit’s Performance Management
Plan that can optimistically but realistically be achieved within the stated time frame and
with the available resources. ADS 203 concludes by saying that targets that are set too
low are not useful for management and reporting purposes.

The lack of realistic targets occurred because current SO 8 performance indicators and
targets had been established prior to the funding and implementation of the Emergency
Plan. Although USAID/Uganda had an extensive HIV/AIDS program in place prior to the
Emergency Plan, the extent to which the Emergency Plan greatly increased Mission
funding and program resources and capabilities was not known at the time the indicators
and targets were set. Consequently, current performance targets for implementing
partners did not reflect the additional program resources provided by the Plan.

Without realistic performance targets for indicators, the intended purpose for having
targets will not be achieved, a situation which could negatively impact USAID’s results-
oriented management approach. Without good performance management, budget



                                                                                        14
decisions may not be as well informed as practically possible and efficient use of USAID
resources may not be achieved. We, therefore, make the following recommendation.

   Recommendation No. 3: We recommend that USAID/Uganda (1) revise the
   performance targets for its implementing partners under Strategic Objective
   No. 8 to take into consideration current program capabilities and resources,
   and (2) update its Performance Management Plan to reflect the revised
   targets.

Are USAID/Uganda’s HIV/AIDS activities contributing to the
overall U.S. Government’s Emergency Plan targets?
USAID/Uganda’s HIV/AIDS activities have contributed significantly to the overall U.S.
Government’s (USG) Emergency Plan care and treatment performance targets for fiscal
year 2004, which generally were exceeded by the USG. In Uganda, the USG team
consists of USAID, the Centers for Disease Control and Prevention, the State
Department, the Defense Department, and the Peace Corps. The team, which is
chaired by the Deputy Chief of Mission, meets weekly to discuss current issues and
Emergency Plan progress. Ad hoc meetings are also held when considered necessary.
The team also meets regularly with the Uganda AIDS Commissioner, and the Uganda
Ministry of Health.

In the area of prevention, however, O/GAC was reviewing its methodologies for
measuring the impact of prevention activities on ABC targets, which comprise 94 percent
of prevention targets. Accordingly, it was not possible to determine USAID’s contribution
to those prevention targets.       Nevertheless, for areas of care and treatment,
USAID/Uganda played a critical role in contributing to the overall reported results for the
U.S. Government’s Emergency Plan in Uganda, as discussed below. This important role
in meeting Emergency Plan targets is also reflected in the fact that USAID/Uganda
received $49.6 million, or 62 percent, of the $80.6 million budgeted for the overall U.S.
Government effort in Uganda.

It was not possible to determine USAID/Uganda’s contribution to prevention targets due
to the current review of basic methodologies for setting targets for infections averted.
Nevertheless, we found that USAID/Uganda played a vital role in contributing to the total
results for activities designed to avert infections. Under VCT, the total number of
individuals reported was 308,730 receiving VCT, out of which USAID/Uganda reported
268,607, representing 87 percent of the total. For PMTCT, USAID/Uganda’s reported
contribution was 5,905 individuals receiving a complete course of antiretroviral
prophylaxis out of a total of 5,948, which constitutes 99 percent of the total results.

USAID/Uganda’s activities also made a major contribution to the overall U.S.
Government’s Emergency Plan targets for care. Under the performance indicator for
care and support, USAID reported 128,126 individuals receiving care and support
against a target of 225,000, which translates into a contribution of 56 percent of the
target. For OVC activities, USAID reported 70,053 individuals against a target of 70,000,
which equates to 100 percent of the target. Total USG reported results exceeded the
Emergency Plan targets for these indicators, with 228,284 reported for care and support,
and 70,053 for OVC.




                                                                                        15
Under the category of treatment, USAID/Uganda’s HIV/AIDS activities contributed a
substantial amount to the overall Emergency Plan targets. The USG target for HIV/AIDS
treatment in Uganda was to provide 24,410 individuals with ARVs. USAID/Uganda
reported providing ART to 21,583 patients, for a total contribution of 88 percent of the
target. Total USG results reported were 26,415, which exceeded the target.

The table presented below highlights USAID/Uganda’s reported accomplishments in
prevention, care and treatment for Fiscal Year 2004.


                                      Fiscal Year 2004
                     USAID/Uganda Reported Targets and Results (unaudited)

                                                                                              Percentage of
                                                          Total USG           USAID's           USAID's
        Indicators                 USG Target              Results           Contribution      Contribution

        Prevention
Number of pregnant
women receiving a
complete course of
antiretroviral prophylaxis
in a PMTCT setting                    TBD5                   5,948              5,905              99%
Number of pregnant
women who received
PMTCT services                        TBD5                  95,094              94,794             99%
           Care

Individuals receiving
palliative care                      37,600                147,980             134,322             90%
OVCs receiving care and
support                              70,000                 70,053              70,053            100%
    Counseling and
         Testing
Number of individuals
who received counseling
and testing                             06                 308,730             268,607             87%
       Treatment
Individuals receiving ART            24,410                 26,415              21,583             82%




5
  “Prevention targets are not provided as the USG is currently reviewing basic methodologies to set targets.”
(Page 76, Emergency Plan for AIDS Relief FY 2004 Operational Plan dated May 2004)
6
  Table 3.2 of Fiscal Year 2004 Country Operational Plan for Uganda does not have a target number for
counseling and testing. For indicators without set target numbers, total USG results were used as a
denominator to compute the percentage of USAID/Uganda’s contribution to overall USG’s Emergency Plan
results.



                                                                                                         16
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Uganda concurred with our recommendations
and described the actions taken and those planned to be taken to address our concerns.
The Mission’s comments and our evaluation of those comments are summarized below.

In response to Recommendation No. 1, the Mission indicated that the implementing
partner will continue to provide supervision to assist service providers to correct
incomplete patient registers and improve processing for data collection. A data quality
assessment is also scheduled for July 2005 with implementing partner and service
provider participation. As a result of this, we believe that a management decision has
been reached on this recommendation.

Concerning Recommendation No. 2, the Mission reported that the implementing partner
has a concurrence letter from USAID/Washington providing approval for the purchase of
a small supply of test kits for emergency purposes. Additionally, confirmation has been
received that supplementary Emergency Plan funds have been approved for the
purchase of test kits, which should provide additional protection from stock outs.
Consequently, we believe that a management decision has been reached on this
recommendation.

In addressing Recommendation No. 3, the Mission stated that, although it had not
updated its Performance Management Plan at the time of the audit, it was working under
more realistic targets based on Emergency Plan documents. The Mission indicated that
the Performance Management Plan has now been updated to reflect current Emergency
Plan targets. Accordingly, we believe that a management decision has been reached on
this recommendation.

Management comments are included in their entirety in Appendix II. (See page 20.)




                                                                                    17
                                                                               APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted government auditing standards. Fieldwork for this audit was
performed at the USAID Mission in Uganda, as well as five implementing partners, four
U. S. Government partners, and several service providers within Uganda between April
4, 2005 and April 22, 2005.

This audit was one of a series of worldwide audits conducted by the Office of Inspector
General and selected Regional Inspectors General. It was designed to answer the
following three questions: (1) How has USAID/Uganda participated in the President’s
Emergency Plan for AIDS Relief activities? (2) Did USAID/Uganda's HIV/AIDS activities
progress as expected towards planned outputs in their grants, cooperative agreements
and contracts? (3) Are USAID/Uganda's HIV/AIDS activities contributing to the overall
U.S. Government's Emergency Plan targets?

The scope also included reviewing USAID/Uganda’s role in the President’s Emergency
Plan for AIDS Relief and its contribution to the U.S. Government’s total effort to meet
targets. The scope, however, was limited due to our inability to assess progress for the
number of infections averted as a result of an ongoing U.S. Government review of the
basic methodologies for measuring results for this indicator.

In conducting our audit, we assessed the effectiveness of USAID/Uganda’s internal
controls with respect to consolidating reporting data to the U.S. Government annual
progress report of its activities through September 30, 2004. We identified internal
controls such as:

   •   USAID/Uganda’s process for monitoring its partners’ progress and reporting
   •   USAID/Uganda’s partners’ process for compiling data for its country-level reports

Methodology
To answer audit objective one, we reviewed USAID/Uganda’s fiscal year 2004 Country
Operational Plan, interviewed cognizant technical officers and partners, and reviewed other
pertinent documentation. To answer audit objective two, we interviewed responsible
Mission officials and in-country partners, as well as reviewed quarterly progress reports to
determine progress towards outputs. To answer audit objective three, we reviewed the
Emergency Plan Team’s annual report and reported targets and compared these to
individual partner reports to determine their role in achievement of these targets.

Additionally, we interviewed implementing partners providing program services to Uganda.
We reviewed Mission-maintained work plan files and progress reports of implementing
partners to compare planned outputs with progress. Finally, we conducted site visits to




                                                                                         18
partners and beneficiaries involved in prevention, care and treatment and observed
facilities and operations.

A materiality threshold was not established for this audit since it was not considered to
be applicable given the qualitative nature of the audit objectives, which focused on the
USAID’s participation, progression and contribution towards the overall U.S.
Government's Emergency Plan targets.




                                                                                      19
                                                                                    APPENDIX II


MANAGEMENT COMMENTS


                                        MEMORANDUM
FROM:                    Vicki L. Moore, USAID/Uganda Mission Director /s/

TO:                      Jay Rollins, Regional Inspector General/Pretoria

SUBJECT:                 Draft Report on Audit of USAID/Uganda’s Implementation of the
                         President’s Emergency Plan for AIDS Relief (Report No. 4-617-
                         05-00X-P

DATE:                    July 6, 2005


The purpose of this memo is to provide comments to the draft June 14, 2005 report on PEPFAR
program implementation at USAID/Uganda. Below we have stated our position on each of the
three recommendations in the report. Further, we have also included feedback on a few
statements that were not correct.

Report Recommendations:

1. Improvement in the PMTCT indicator data quality

The Elizabeth Glaser Pediatric AIDS Foundation will continue to provide regular support
supervision to assist individual sites to correct incomplete patient registers and to work with the
Ministry of Health on improved processing for data collection. A second tier data quality
assessment (DQA), at the district level, is planned for July 2005. The USG PEPFAR monitoring
and evaluation contractor (MEEPP) will be implementing the DQA at district EGPAF sites with
implementing partner and Ministry of Health participation.

2. Alternate supply sources for test kits need to be identified

The Elizabeth Glaser Pediatric AIDS Foundation (The Foundation) is eager to minimize
unexpected program disruptions due to the stock out of critical HIV/AIDS test kits. Their
preference, for sustainability reasons, is to continue to use the Ministry of Health as the main
source for the test kits. The Foundation does plan on having a small supply of test kits on hand
to cover the eventuality of stock outs. The Foundation has a concurrence letter from
USAID/Washington dated April 25, 2005 indicating approval for such purchases. Further, the
USG has received confirmation that supplementary PEPFAR funds for the purchase of 1.8 million
test kits, to be provided through the Ministry of Health, has been approved and will secure the
supply.



                                                                                                  20
3. Performance targets for implementing partners were outdated

Though the audit report states that the SO8 performance monitoring plan (PMP) had
low/outdated targets for the PEPFAR indicators, and that this could negatively impact USAID’s
results oriented management approach, the Mission did have updated targets in the PEPFAR
working documents, including the country operational plan. At the time of the audit, the Mission
had not yet updated the PMP with the new PEPFAR targets that were included in current Mission
PEPFAR documents, but that does not mean the Mission was not working under more realistic
targets based on increased HIV/AIDS funds. The SO8 performance monitoring plan has now
been updated to reflect current PEPFAR targets.

Additional comments:

Page 6 – USAID’s PMTCT program is country-wide, not in only seven districts. The EGPAF
PMTCT program is only is seven districts, but AIM and other partners are covering many other
districts throughout the country.

Page 7 – Abstinence/Be Faithful. USAID’s overall prevention program is based on the “ABC”
model, which includes abstinence, being faithful to your partner, and use of condoms. The report
makes it seem as though USAID’s program is based on an AB only model, which is not the case.
Also, one third of prevention funding is for abstinence and be faithful programs (AB), not just A.

Page 9 – Care and Support for OVC. At the national level a national policy and implementation
plan had recently been developed (not was being developed). Also, in FY04 Mission partners
reported supporting 70,053 OVCs, your report states only 25,000.

Page 10 – ART, bottom of the page states that JCRC reported 21,583 receiving ART out of a
planned output of 24,410. The target of 24,410 was for the whole USG, and the actual for the
whole USG was 26,415, of which USAID, through its implementing partner JCRC, contributed
21,583, or 82% of the total.




                                                                                               21
                                                            APPENDIX III


List of Acronyms



                                 ACRONYMS

          AIDS     Acquired Immunodeficiency Syndrome
          ART      Antiretroviral Therapy
          ARV      Antiretroviral
          CDC      Centers for Disease Control and Prevention
          HIV      Human Immunodeficiency Virus
          NGO      Non-Governmental Organization
          O/GAC    Office of the U.S. Global AIDS Coordinator
                   (at the U.S. Department of State)
          OVC      Orphans and Vulnerable Children
          PMTCT    Prevention of HIV/AIDS Mother-to-Child Transmission
          USAID    U.S. Agency for International Development
          VCT      Voluntary Counseling and Testing




                                                                         22
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
